No. 19-1006
IN THE

$upreme <lCourt of tbe Wintteb $tates
FACEBOOK, INC., AND TWITTER, INC. ,

Petitioners ,
V.

SUPERIOR COURT OF SAN FRANCISCO COUNTY,
DERRICK D. HUNTER, AND LEE SULLIVAN,

Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Reply Brief for Petitioners contains 1,486 words and complies with the word
limitation established by Rule 33.l(g)(iii) of the Rules of this Court.
Dated: April 27, 2020

